State of New Jersey
OFFICE OF THE ATTORNEY GENERAL

PHILTP D. MURPHY

Govemor

D EPARTMENT OF LAw AND PUBLIC SAFETY

SHEILA Y. OLIVER

25 MARKET STREET

DMSION OF LAw

Lt. Governor

PO Box 112
T RENTON, NJ

GURBIR

S. GREWAL

Attorney General
MICHELLE

L.

08625-0112

May 10, 2021

VIA ELECTRONIC FILING
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

PDX North, Inc. et al. v. Asaro-Angelo
Docket No.: 20-1327

Dear Mr. Harris:
Respondent, Commissioner Robert Asaro-Angelo, writes to request a 30-day extension to
file a response to the petition for certiorari in the above-captioned matter. See Sup. Ct. R. 30.4.
The petition was filed on March 19, 2021. Respondent filed a timely waiver on April 22, 2021.
On May 5, 2021, this Court requested a response to the petition. The response to the petition is
currently due on or before June 4, 2021. An extension of time of 30 days to file a response will
create a new due date of July 6, 2021. Petitioner has consented to this request.
This is Respondent's first request for an extension, which is necessary to ensure that
Respondent can review and provide a thorough and appropriate response to the petition because
of the assigned attorneys' respective obligations to manage heavy caseloads.
We thank you in advance for your consideration of this request.
Respectfully submitted,
GURBIR S. GREW AL
ATTORNEY GENERAL OF NEW JERSEY
By:

J~eigenb
State Solicitor
Corinne McCann Trainor, Esq. (via electronic filing)

HUGHES JUSTICE COMPLEX • TELEPHONE : (609) 376-2960 • FAX: (609) 633-7494

New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

MILLER

Director

